<html>
<title> - [H.A.S.C. No. 113-117] GOVERNMENT ACCOUNTABILITY OFFICE REVIEW OF THE PRISONER OF WAR/ MISSING IN ACTION (POW/MIA) COMMUNITY AND THE RESTRUCTURING OF THESE AGENCIES AS PROPOSED BY THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 113-117]

    GOVERNMENT ACCOUNTABILITY OFFICE REVIEW OF THE PRISONER OF WAR/

                      MISSING IN ACTION (POW/MIA)

                    COMMUNITY AND THE RESTRUCTURING

                    OF THESE AGENCIES AS PROPOSED BY

                       THE DEPARTMENT OF DEFENSE

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 15, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 




                                   ______

                      U.S. GOVERNMENT PRINTING OFFICE 

89-510 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                           Colin Bosse, Clerk
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, July 15, 2014, Government Accountability Office Review 
  of the Prisoner of War/Missing in Action (POW/MIA) Community 
  and the Restructuring of These Agencies as Proposed by the 
  Department of Defense..........................................     1

Appendix:

Tuesday, July 15, 2014...........................................    17
                              ----------                              

                         TUESDAY, JULY 15, 2014
GOVERNMENT ACCOUNTABILITY OFFICE REVIEW OF THE PRISONER OF WAR/MISSING 
 IN ACTION (POW/MIA) COMMUNITY AND THE RESTRUCTURING OF THESE AGENCIES 
                AS PROPOSED BY THE DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Lumpkin, Hon. Michael D., Assistant Secretary of Defense, Special 
  Operations/Low-Intensity Conflict, Performing the Duties of 
  Under Secretary of Defense for Policy, Department of Defense...     5
Morin, Hon. Jamie M., Director, Cost Assessment and Program 
  Evaluation, Department of Defense..............................     3

                                APPENDIX

Prepared Statements:

    Lumpkin, Hon. Michael D......................................    32
    Morin, Hon. Jamie M..........................................    22
    Wilson, Hon. Joe.............................................    21

Documents Submitted for the Record:

    Statement for the Record by Hon. Glenn Thompson..............    47

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
GOVERNMENT ACCOUNTABILITY OFFICE REVIEW OF THE PRISONER OF WAR/MISSING 
 IN ACTION (POW/MIA) COMMUNITY AND THE RESTRUCTURING OF THESE AGENCIES 
                AS PROPOSED BY THE DEPARTMENT OF DEFENSE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                            Washington, DC, Tuesday, July 15, 2014.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, the hearing will come to 
order. I would like to welcome everyone to the Subcommittee on 
Military Personnel of the House Armed Services Committee, as we 
hear from witnesses on the planned reorganization of the POW/
MIA [Prisoner of War/Missing in Action] accounting community of 
the Department of Defense.
    Almost a year ago, this subcommittee held a hearing on 
GAO's [Government Accountability Office] report on their review 
of the Department's efforts to meet the 2010 mandate to 
identify 200 missing persons per year by 2015, and Dr. Paul 
Cole's report entitled ``JPAC's [Joint POW/MIA Accounting 
Command] Information Value Chain, the Identification of Missing 
Persons.''
    The GAO report, and I hope our committee's interest in 
oversight on this issue, became what I believe is a catalyst 
for change. Reviews by the Office of the Cost Assessment and 
Program Evaluation and the Office of the Inspector General 
began shortly after the hearing; on 31 March 2014 Secretary 
Hagel announced the reorganization of the accounting community 
based on the recommendation of the reviews.
    Today, the subcommittee will continue its oversight on this 
important issue to hear from our witnesses on how they came to 
the conclusions and recommendations announced by the Secretary 
and the way ahead for the reorganization for the POW/MIA 
accounting community.
    The men and women both in uniform and DOD [Department of 
Defense] civilian personnel who perform this mission are very 
dedicated to this effort and have done incredible work in the 
past. I am confident they will continue as professionals as the 
Department moves forward with these efforts.
    I am hopeful to move forward with this endeavor, as I 
firmly believe that we as a nation owe the proper emphasis, 
resources, and priority of effort to account for our missing 
persons from past conflicts and to bring closure to their 
family members.
    I would like to welcome our distinguished witnesses. Dr. 
Jamie Morin, newly confirmed within the last month.
    Dr. Morin. Two weeks, sir.
    Mr. Wilson. Two weeks--even better. So thank you and best 
wishes. Director of the Cost Assessment and Program Evaluation 
and DOD is so good on acronyms, CAPE.
    Mr. Michael D. Lumpkin, Assistant Secretary of Defense, 
Special Operations/Low-Intensity Conflict, performing the 
duties of Under Secretary of Defense for Policy, Department of 
Defense.
    Mrs. Davis, do you have any opening remarks?
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 21.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman. I also want to extend 
a warm welcome to Secretary Lumpkin and to Dr. Morin. Thank you 
for being with us today.
    Last year this subcommittee held a hearing that highlighted 
the dysfunction and the challenges that plagued the POW/MIA 
accounting community within the Department of Defense. As a 
result, Secretary Hagel took his responsibility head-on here 
and asked Assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict Lumpkin to lead this effort to 
resolve the many issues that confront this community.
    The Secretary proposed to establish a single defense agency 
to consolidate and coordinate the vast activities that fall 
under the purview of the POW/MIA accounting community. The 
subcommittee supported this effort and included language in the 
fiscal year 2015 NDAA [National Defense Authorization Act] to 
create a more effective and efficient organization to be able 
to meet the goal of identifying at least 200 sets of remains a 
year by 2015.
    While the consolidation and the establishment of a defense 
agency is a positive first step, it is important for us to 
understand what the final agency will be comprised of; how will 
the transformation and the consolidation of activities, 
personnel, and resources be accomplished, and what the timeline 
for these actions will be; and what is really a fair timetable 
for the Department to accomplish the proposal, and for the 
Congress and the American people, particularly the families and 
loved ones who have a service member who is missing or 
unaccounted for, to be able to hold the agency accountable for 
the increased transparency that the agency of course is saying 
that this will bring about, the transparency of the reporting 
and certainly the identifications as well.
    Mr. Chairman, I know we have a moral responsibility to 
ensure that those who are missing and remain unaccounted for 
are returned home to their family and their loved ones. I 
happen to see an article just now where a granddaughter is 
searching for a grandfather who died back in 1952 and that's 
not unusual. We know that that occurs.
    I look forward to hearing from our witnesses and having an 
open and a productive dialogue today as we move forward to 
fundamentally change the POW/MIA accounting community. Thank 
you, Mr. Chairman.
    Mr. Wilson. Thank you, Ranking Member Susan Davis.
    I now ask unanimous consent that Representative Richard 
Nugent and Tim Walz be allowed to ask questions during the 
hearing. Without objection, so ordered.
    I also ask unanimous consent that Representative Glenn 
Thompson be allowed to submit a statement for the record. 
Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 47.]
    Mr. Wilson. Dr. Morin, we will begin with your testimony. 
As a reminder, please keep your statements to 5 minutes. We 
have your written statements as well as Mr. Lumpkin's.
    Additionally, very likely we will be interrupted with 
votes. We will recess and then come back. And then each member 
who would like would have the opportunity for a 5-minute 
question period. So thank you very much. Dr. Morin.

STATEMENT OF HON. JAMIE M. MORIN, DIRECTOR, COST ASSESSMENT AND 
           PROGRAM EVALUATION, DEPARTMENT OF DEFENSE

    Dr. Morin. Mr. Chairman, Mrs. Davis, thank you very much 
for the invitation to testify today and for the committee's 
continued commitment to ensuring that our families of service 
members have the opportunity to get closure for those who 
remain missing from our Nation's conflicts.
    The Department of Defense works very hard to ensure that we 
seek and recover the remains of our fallen heroes, and that we 
can bring that sort of closure to the families. We are able to 
do so thanks to the authorities and the appropriations that the 
Congress provides for that purpose. And so we very much 
appreciate the committee's continued support for that effort 
and engagement on the reform process in this area.
    The Department very clearly has a solemn duty in this area 
to provide our families of the fallen with the fullest possible 
accounting. As you mentioned, in 2009, the Congress passed 
legislation requiring the Department to increase its personnel 
accounting capability, and set the goal of accounting for 200 
missing personnel annually beginning in 2015.
    Despite a very strong commitment from the leadership of the 
Department and the hard work of many dedicated men and women 
across the accounting community, when the Cost Assessment and 
Program Evaluation Office looked at the community's progress 
towards this metric, it was clear that fundamental reform was 
going to be required to put us on a path to achieve the 
legislative goal.
    So in my testimony today, what I would like to do is update 
the committee on CAPE's recommendations for reforming an 
imperfect system. As this committee is very much aware, in July 
of last year, the GAO study laid out in a very strong report 
the fact that a fragmented organization structure undermined 
the Department's ability to accomplish this mission.
    Deputy Secretary Carter tasked my office with 
responsibility to assess the efficiency and the effectiveness 
of the personnel accounting community's structure and their 
processes, and to evaluate whether the 200-accounted-for metric 
was a sufficient one for observing and evaluating the 
community.
    If I can just summarize in capsule form, our study 
confirmed many of the findings of the GAO report and extended 
on them in some respects. We determined number one, that the 
Department should fundamentally reform the organizational 
structure of the personnel accounting community, and should do 
so by unifying the Defense Prisoner of War and Missing 
Personnel Office, which we call DPMO, and the Joint POW/MIA 
Accounting Command, which we call JPAC, into a single new 
civilian-led defense agency with a new name that brings 
together the missions.
    Second, we recommended that the Department add a medical 
examiner as the lead authority for establishing formal 
identification within the personnel accounting process.
    The third recommendation is that we rescope the activities 
of the Central Identification Laboratory and make that entity 
more focused and more efficient.
    And then fourth, we recommend that the Department 
complement the annual accounted-for number goal with a broader 
range of appropriate metrics that really reflect the full range 
of efforts that are executed by the accounting community to 
include many activities caring for families of those lost. And 
our report includes a list of metrics for possible 
consideration.
    So in addition to those main recommendations, CAPE also 
identified a number of process improvements within the 
personnel accounting organizations. First among these, to 
improve transparency by categorizing cases for all of our 
conflicts as either active pursuit cases or non-recoverable 
cases, and engaging with and informing family members of the 
case status and the reasons for categorization.
    A second of these additional recommendations, and there are 
several more that I won't enumerate right now but are in the 
written report, is to establish a standard case management 
tool, really a database, that is accessible across the 
personnel accounting community, has accessibility for family 
members as well, and that includes all the appropriate 
restrictions and controls to protect data that needs to be 
protected, but also maximize transparency.
    Our assessment is that these changes, along with many 
others that are identified in the report, will, if implemented, 
improve business practices and mission effectiveness throughout 
the community. And my team that worked on this report is 
closely collaborating with Mr. Lumpkin's team in the 
implementation effort.
    Bottom line here, in the report last year, GAO stated top-
level leadership attention is needed to address the personnel 
accounting issues. My assessment is that is exactly what is 
happening. The CAPE study team presented findings directly to 
Secretary Hagel. Secretary Hagel listened to those findings and 
that informed his decisions based on Mr. Lumpkin's 
recommendations to reorganize the community and improve its 
business processes.
    Again, we are pressing forward on this effort. We very much 
appreciate the committee and the Congress' continued support. I 
wanted to just close by thanking the excellent CAPE staff, a 
few of whom are in the room right now, who worked on this 
effort, and I think produced actionable, concrete, real 
recommendations for the Secretary and Mr. Lumpkin that will 
help the Department to deliver on this important mission. Thank 
you.
    [The prepared statement of Dr. Morin can be found in the 
Appendix on page 22.]
    Mr. Wilson. Thank you very much. What a positive report. 
This is very unusual in Congress and--to see it coming together 
with common sense, so thank you very much.
    And Mr. Lumpkin, we are having votes, and so 5 minutes, 
thank you and then we will recess and come right back.

 STATEMENT OF HON. MICHAEL D. LUMPKIN, ASSISTANT SECRETARY OF 
DEFENSE, SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT, PERFORMING 
THE DUTIES OF UNDER SECRETARY OF DEFENSE FOR POLICY, DEPARTMENT 
                           OF DEFENSE

    Mr. Lumpkin. Chairman Wilson, Ranking Member Davis, 
distinguished members of the subcommittee, thank you for your 
steadfast support for our service members and civilians who are 
missing from our Nation's past conflicts and their families who 
wait for news of their loved ones.
    I respectfully request my written testimony be included for 
the record. The authorities and the appropriations that 
Congress has provided the Department of Defense have allowed us 
to continue to recover the remains of our fallen service 
members and provide answers to their families.
    From Dr. Miller's departure in early January to late June, 
when Christine Wormuth was confirmed as Under Secretary of 
Defense, in addition to serving as the Assistant Secretary of 
Defense for Special Operations and Low-Intensity Conflict, I 
also performed the duties of the Under Secretary of Defense for 
Policy.
    In this capacity, Secretary Hagel tasked me with leading 
the Department's restructuring of its personnel accounting for 
past conflicts to more effectively account for our missing 
personnel and ensure their families receive timely and accurate 
information. The Department is committed to improving the 
services we provide families.
    The Department of Defense conducts accounting of the 
personnel missing from past conflicts to record and honor the 
deeds and sacrifices of our service members and the civilian 
personnel, and the legacy of the loss endured by their 
families.
    The missing person is the purpose behind what we do. The 
families are our focus and better service is our goal. The 
Department recognizes that we cannot recover remains in all 
cases. In all cases, however, we have a duty to provide 
designated family members the fullest possible accounting for 
their loved ones. Change, even for the better, is difficult.
    I appreciate this committee's support for reform, and I 
look forward to continuing to work with you. The Secretary's 
decisions to change how the Department conducts personnel 
accounting address deficiencies in process, workplace culture, 
and organizational structure.
    The decisions are based on dispassionate analytical 
assessments and informed by feedback from families and here in 
the U.S. Congress. Recognizing that to fulfill this commitment 
to the fullest possible accounting the Department of Defense 
must do better, in March Secretary Hagel directed sweeping 
changes to how the Department of Defense operates in this area. 
His decision was based on careful consideration reviewed from 
GAO and from CAPE, independent assessments, comments from DOD 
Inspector General, veterans service organizations, families, 
and the workforce.
    Secretary Hagel directed the establishment of a new defense 
agency that combines the functions of the DPMO, the Joint POW/
MIA Accounting Command, select functions of the Air Force Life 
Science Equipment Laboratory. He directed that an Armed Forces 
medical examiner will be the single identification authority, 
making the process for past and current identifications the 
same, and overseas scientific operations in the new agency. The 
Department will work with Congress to realign funds for this 
mission into a single budget allowing for greater flexibility 
and availability to respond more effectively.
    To improve the search, recovery, and identification 
process, the Department will implement a centralized database 
and case management system containing all missing service 
personnel's information. The Department is also exploring 
options to make this data more easily and readily available to 
families.
    Importantly, Secretary Hagel directed the Department to 
develop proposals for expanding public-private partnerships in 
identifying our missing to leverage the capabilities of 
organizations outside of government that responsibly work to 
account for our missing.
    Consolidating the organizations that work on past conflict 
personnel accounting is necessary, but not singularly 
sufficient for change we seek for families of our missing 
service members.
    The culture of personnel accounting and processes must 
change as well. The Secretary's decision to increase public-
private partnership, make a medical examiner the identification 
authority and director of scientific functions, and focus on 
families as the customer, are emblematic of the cultural and 
process changes that we are seeking to achieve.
    Some of these decisions, particularly on the role of the 
medical examiner, are significant departures for how we have 
done business in the past. Implementation will require 
continued support for change from within the Department and 
from Congress. These decisions, however, are deliberate and 
backed by years of solid analysis from within the government 
and independent bodies.
    To build on our strengths and change for the cultures, 
structures, and processes, we must take a rational approach, 
not one based on emotion, personal agendas, or bias. The 
Department will sustain and further develop the strengths of 
our past conflict accounting processes, notably, scientific 
independence and validity.
    The Secretary of Defense has a longstanding personal 
interest in this important mission, and feels compelled to 
improve the Department's operations and how we support it. I 
have welcomed the time I spent working on this noble mission 
and have appreciated working with the committee and others in 
Congress to more effectively account for our missing personnel 
and ensure their families receive timely and accurate 
information.
    I do thank you for your continued support and look forward 
to your questions.
    [The prepared statement of Mr. Lumpkin can be found in the 
Appendix on page 32.]
    Mr. Wilson. Thank you, Mr. Lumpkin. We will now recess and 
when we return, we will have a 5-minute questioning period. I 
want to thank in particular Craig Greene who will be monitoring 
5 minutes. He himself has been a great resource working with 
just great capability on the issues of POW/MIA, so we're very 
fortunate to have Craig Greene for everyone to call on.
    We are in recess.
    [Recess.]
    Mr. Wilson. Ladies and gentlemen, I would like to call the 
Subcommittee on Military Personnel of the House Armed Services 
back to order relative to issues of POW/MIA.
    We now will begin with questions from persons, indeed we 
have been joined by Congressman Rich Nugent of Florida, 
delighted to have him here. And I will begin first.
    First, again, Craig Greene will be maintaining the time, 
including me.
    I would like to point out that one of the most meaningful 
experiences I have had in serving in Congress is to visit a 
recovery site 40 miles outside of Hue in Vietnam to see the 
dedication of the personnel, American and Vietnamese, for the 
recovery of remains of two pilots on an F-4A on the side of a 
hillside which went down, which is very inspiring to me, and I 
just want that to be the case.
    Equally though, I was concerned the letter by Congressman 
Glenn Thompson, he has a report here that we will be giving to 
you, and I hope there is a response back, concerning the case 
of Major Lewis P. Smith III, who is missing in a plane crash in 
Laos and he was--the site was on a list for recovery, but in 
the meantime, a dam has been built. And the waters of the dam 
now cover the site. Certainly to me, that should have been an 
issue that should have given expedited interest for the 
recovery, but we will have this letter for you and for the 
family of Major Smith. I would really like to see your 
response.
    So at this time, Mr. Lumpkin, before making your 
recommendation to the Secretary, how much consensus did you 
have among the accounting community? And how has the 
Department--has the Department finished the implementation 
plan? And if so, do you have a copy of the implementation plan?
    Mr. Lumpkin. Thank you very much for the question. As we 
were doing the initial assessment based on when tasked by the 
Secretary in looking at both the GAO report, the CAPE report, 
as well as numerous meetings with veterans service 
organizations, families, members of this committee and staff, 
and over on the Senate as well, I would say that it was 
unanimous consent that change was needed. And we worked through 
the different issues and proposals and socialized the potential 
possibilities for change and where change was needed and the 
important aspects that need to be changed.
    I think that the most important piece that we came to 
conclusion, and this is kind of a business perspective, is that 
who is the customer here? And the customer was realized that we 
hadn't been focused on the families as much as we could. And 
so, what we have done is we have realigned. I think that was 
the central theme that everybody that was absolutely could get 
behind, was that we need to focus on the families as the 
customer because the missing service member can't speak for 
their case.
    And because of the deep concern with the families, I think 
that is the underlying piece that everybody agreed upon. And 
then how we built it and the way to organize and make the 
recommendations. There was general consent, and some of them we 
had to work through. But I would say generally there was 
consent across the board.
    Now, as far as the timeline and what that plan looks like, 
we had 30 days to put together what needed to be changed, and 
now we are figuring out some of the mechanics of how. The 
implementation plan is not completed as of yet. I will tell you 
it is broken into three different principal phases. The first 
is unifying the mission set for the agency, the single agency 
as we consolidate these different pieces. The second piece is 
the process. The one thing as I mentioned in my opening 
statement is that we need to focus on is a singular process for 
all cases of those that are missing and unaccounted.
    And then the final piece is the people and how we are going 
to properly align the people in order to support the mission, 
because we have a tremendous and highly skilled workforce that 
is passionate about this mission. And we need to make sure we 
remove those barriers that have impeded them from being 
successful, largely bureaucratic barriers. Secretary Hagel is 
adamant about cutting bureaucracy whenever possible and 
enabling the accounting community team to do the mission at 
hand.
    So our timelines that we are looking at, is we are looking 
at an initial operating capability of a new agency, at the 
beginning--January 1st, 2015, and to have a fully operational 
capable agency on January 1st, 2016. This may seem like a 
protracted timeline, but some of these changes do require, in 
order to create the single agency, are legislative. We have to 
realign budgets within and we have to realign the workforce, 
and that takes time to do.
    That said, while we are focused on rebuilding and 
reconstituting--the accounting community, it is essentially 
like flying an airplane while you are building it, because we 
are not going to cease doing the mission today. So we are going 
to continue to do the mission today while we are creating this 
new accounting agency.
    Mr. Wilson. This is very encouraging, as you say change 
needed, that is impressive to me without recrimination and 
apparently, hopefully, without turf protection. And I want to 
thank you for addressing the issues of fragmentation.
    And indeed, Dr. Morin, the funding for this with the 
constraints on Department of Defense and the issue, 
particularly of sequestration, what is the status of funding?
    Dr. Morin. So Mr. Chairman, I would divide the status of 
funding into two pieces. The first is the administrative or 
clerical task of realigning the streams of funding. Right? So 
we will be standing up an individual organization that will 
bring together multiple organizations. It needs to have its own 
concrete, coherent stream of funding. The DOD Comptroller and 
my staff are working that issue to ensure that when that 
organization becomes operationally capable, it has got the line 
on the resources it needs from an administrative perspective. 
They also need support in areas of contracting and financial 
management and all of the other administrative areas necessary 
for them to be successful. So we are working that piece.
    The second question is just how many resources are applied 
to this mission. As you know, this is a mission where the 
Department has invested significant resources. The Department 
added additional resources after the enactment of the 200 
accounted-for per year goal. Didn't see very much in the way of 
return in terms of additional identifications. Obviously each 
identification is its own case, with its own details. Some come 
comparatively easy; others are the product of many, many years 
of work.
    But what we need to do, in my estimation and the estimation 
of the CAPE team, is focus on implementing the reorganization 
and the reforms that are laid out in the reports and the action 
proposal that Mr. Lumpkin has put together, and then assess 
whether that streamlined and more effective organization is 
able to deliver sufficient capability, sufficient 
identification, sufficient service to the families, in order to 
be deemed successful or whether the Secretary needs to add 
additional financial and human resources to get there. We 
simply don't know how efficient that redesigned organization 
will be until we have given them a chance to stand up.
    Mr. Wilson. Thank you very much. Keep us informed in 
however we can be of assistance.
    Ranking Member Susan Davis of California.
    Mrs. Davis. Thank you, Mr. Chairman. Welcome to both of 
you.
    Secretary Lumpkin, could you please within that timeframe 
you talked about, the 15 to 16, the initial work and then after 
16 to be at full capacity, could you give us a little bit more 
detail about what that is going to look like within that 
initial phase, initial year? And do you need any additional 
authorities to accomplish this effort overall? Do you 
anticipate that?
    Mr. Lumpkin. The Congress thus far, and this committee in 
particular, has been very supportive, with Representative 
Nugent championing the amendment for the midstream legislative 
proposal to support this realignment has been the first step 
for us to get things moving forward.
    We are also looking at a reprogramming right now for this 
fiscal year of funds, unobligated funds to go against this new 
agency. This is important for many reasons, because we are 
going to have expenses that occur in support of standing this 
organization, this new agency, up, but it also is a shot across 
the bow to all in the Department of Defense that we are at a 
point where we can't turn back, nor are we going to turn back. 
It is symbolic of the Secretary's commitment that we are with 
going to get this done and we are going to get it done right.
    So, as we move forward, those are the initial steps that we 
have taken in order to get to the initial operating capability 
of 1 January.
    What we have done, is we have assigned a senior executive, 
Ms. Alyssa Stack, and she is working as the program executive 
officer full-time to support and build this realignment and 
restructuring of the accounting community. So she is building, 
she has a team that she has been given, she has been given 
resources, we have brought on contract support, we have brought 
on all--and given her the tools necessary to flesh out a 
complete schedule on what the timeline in order to make that 
fully operational capability of 1 January 2016.
    And I would propose that quarterly, at a minimum, I come up 
and talk to you all and to keep you updated and the next--at 
the first opportunity to lay that plan out when it is 
completed, and then Alyssa and myself or a representative would 
come up and talk to you and walk you and to keep the in-
progress reviews as we move through, because I value your 
insight as we move forward and get this restructured.
    We have an opportunity that doesn't happen very often when 
you are in a program and that is to do kind of a control, alt, 
delete, and reset. We have the opportunity to do this, and this 
is the Secretary's commitment is do it, do it right, do it 
well, and do it once.
    Mrs. Davis. Thank you. So you are not--really feel in a 
position to give us a little bit more of what is in that, but 
to bring it forward.
    Mr. Lumpkin. I would like a little more time, just to--so I 
can put it in a nice tight, crisp package for you and answer 
all your questions so we are not creating more for you.
    Mrs. Davis. Thank you. Dr. Morin, we know the tight budget 
situation. There probably are--hopefully there will be a few 
instances with the consolidation where we gain some 
efficiencies, but on the other hand, you are going to need more 
money possibly.
    I guess what I am wondering is how you might protect some 
of these different funds that we are trying to bring together 
as we go through some more difficult budget cuts. How do you 
think that is going to play out?
    Dr. Morin. Absolutely, Mrs. Davis. I think that is a 
critical question for the Department. Mr. Lumpkin referenced 
the reprogramming, so on behalf of my former colleagues in the 
comptroller world, that is a package that has just come to the 
Congress now a couple of days ago. There is $2.5 million in 
there requested to initiate activity in the new agency; prompt 
approval of that will let the process begin. So we would 
certainly appreciate that.
    Looking at the overall resource picture, just to keep the 
magnitude in your mind, this is--in recent years has been a 
$100 million-plus-per-year enterprise. So not a trivial 
commitment of taxpayer dollars, but not a trivial debt owed to 
the families of those who were lost in the--soldier, sailor, 
airmen, and marines who are still carried on the rolls as 
missing. But we do certainly have a clear obligation to 
stewardship here.
    So that is where I would like to give the work that Mr. 
Lumpkin's plan has laid out a chance to work and see how it 
works, and at that point, assess where the resource shortfalls 
are.
    The Department, back in the fiscal 2012 budget submission, 
applied very significant additional resources to this 
enterprise, taking it from what was typically a $60- to $70 
million-a-year undertaking to, you know, well over $100 
million. And so, some of those dollars were lost to that 
enterprise as a result of Budget Control Act reductions, 
headquarters staff reductions and the like. And some of it 
frankly, you know, for example, in the case of JPAC, the 
Pacific Command assessed that given the challenges there and 
the fact that hiring freezes were in place, that they wouldn't 
be able to spend those resources and so reductions were made in 
the year of execution to respond to the crisis of 
sequestration.
    No question that those things have had an impact on the 
ability of the community to deliver. Again, our assessment is 
the bulk of the problem was an organizational structure that 
needed addressing.
    Mrs. Davis. Thank you.
    Mr. Wilson. Thank you, Ms. Davis. We now proceed to 
Congressman Walter Jones of North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much. Mr. Lumpkin, 
I listened intently, or carefully, maybe is a better word, to 
you and the doctor's comments. And mine is going to deal 
primarily with the comment you made about we realize that we 
need to strengthen--maybe that is my word, the public-private 
partnership.
    A few years ago I was contacted by Mark Noah, who is the 
person that put together History Flight. And Mark came to me 
because he was having trouble getting information from JPAC, 
and we were able to intercede, working with the Department of 
Defense to help him have access to records.
    He has--his organization since 2010, and it is a private 
organization, has 117 total identifications. In the year of 
2014 alone, he has already 36 recoveries to date. I know you 
are talking about reorganization and hopefully making for more 
efficiency because of the families and the loved ones that 
never came home, but he is saying to me that for his recoveries 
it costs an average of $150,000, where when the Federal 
Government goes out to recover, it is somewhere around $1 
million.
    I hope that Secretary Hagel, who I have great respect for, 
that you will look seriously at these entities like History 
Flight who have a reputation, who, in many ways, is doing a 
much better job than the Federal Government. And I would hope 
that we would learn from these private entities who are making 
such impressive recoveries at their own expense.
    I will tell you, I have never met a person more committed 
than Mark Noah to recovering these family--for these families, 
their loss of loved ones. I mean he flies for Federal Express, 
these are his monies. I don't think he gets any reimbursement 
nor do I think he has asked for any from the Department of 
Defense. I would like to hear your comment, because on the fact 
that these--the part of public partnership is going to be 
strengthened, because to me, we are losing a valuable asset 
that could help these families bring home their loved ones and 
bring that sad chapter to an end. I would like to hear your 
comment on these private entities, specifically my comments 
about History Flight.
    Mr. Lumpkin. Thank you, sir. I have met Mark Noah numerous 
times. He and I are in regular contact. I have solicited his 
input as well as that of other private organizations on how 
they do business and where we can find opportunities to work 
together.
    So please understand that I have personally sat down with 
Mark on numerous occasions to find out how he is doing business 
and how we can partner to work together, both government and 
History Flight as a private organization, and organizations 
like History Flight, in order to bring home those that are 
missing.
    So, he has been integral to our public-private venture. And 
largely, he has a very good and robust investigative arm as 
well as an excavation piece that he does. But there are other 
organizations very similar that do it with great acumen and we 
are working with them to make sure we can get the relationships 
codified and the requirements, both safety requirements on the 
site, get the proper permits done, and sure we can repatriate 
remains in a proper fashion and all of the things that go into 
it.
    Some of those costs that the U.S. Government bears, whether 
History of Flight does the excavation or DOD does the 
excavation.
    So absolutely, I hear you loud and clear. And he is one of 
those people that we are talking to and we see as a partner.
    Mr. Jones. Mr. Lumpkin, probably some time as we move 
forward, I would appreciate it, maybe in September if you--that 
my office contacts you that you could come to my office and 
kind of give us an update and a briefing on these 
relationships, because I think in this tight budget time, that 
if we can come together and find the remains, but also to cut 
the costs, which may allow this government to even do more for 
the families. I understand--very quickly, I know my time is up, 
but there are currently about 78,000 missing World War II 
veterans and about 16,000 missing from the Vietnam war. And if 
we don't start to really make a commitment and it has to be 
from outside sources working with you in the leadership role, 
let me make that clear, which I would support, then I think we 
are missing a great opportunity to do God's work. Thank you.
    Mr. Lumpkin. I would welcome the opportunity to come brief 
you in September or whenever is convenient for you. Please 
understand that as we are looking to build to the capacity of 
200 identifications a year, the public-private partnerships are 
part of the strategy to get to that capacity.
    Mr. Jones. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much, Mr. Jones. We now proceed 
to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman. I would like to follow 
up too on what my friend, Mr. Jones, was talking about. We have 
widely accepted that it is over 80,000 service members. The 
number Mr. Jones just gave was right at 94,000. What number are 
you comfortable with as far as the unaccounted for? What do you 
believe that number----
    Mr. Lumpkin. I believe the operating number is in the 
vicinity of 83,000 that are unaccounted for. Please understand 
that a vast majority of those are realistically not 
recoverable, lost at sea. And so as we look at this in the 
future, we have to categorize people, the missing, accordingly 
so we are putting the resources against those that are cases.
    Mr. Scott. Of the 83,000, we certainly understand that in 
these horrible situations somebody lost at sea that may never 
be recovered, how many do you believe are recoverable?
    Mr. Lumpkin. I have seen estimations between 19- and 28,000 
are deemed to be effectively recoverable.
    Mr. Scott. Let's use 25,000, kind of in the middle there. 
If we do 200 a year, that is 125 years. I think that is where, 
as we move forward--and I certainly appreciate your willingness 
to work with private sectors, again, my friend Mr. Jones was 
talking about, but that is just too long. My grandfather was a 
POW in World War II, he made it home, fortunately; some of his 
friends didn't, some of the people that were on the plane with 
him when it went down didn't. But if we just do the math, 
simple math that comes out to 125 years. So any way we can 
bring in the private sector is something I think that we have 
to do so that these families can get closure on this issue.
    As we go forward I know the recovery, and the lab work, the 
repatriation, all of these things will have to continue as we 
go through the restructuring. Are you confident that you have 
the framework in place so that there is not a disruption in the 
process of the recovery while these changes move forward over 
the next several months?
    Mr. Lumpkin. I believe we have the framework. I think we 
have built the framework and then we have the commitment of the 
Secretary who has made his guidance very clear to the defense 
enterprise that this is going to happen. So all are on board, 
so I feel that we have the tools necessary to continue 
operations while we stand up this new agency.
    Mr. Scott. How long do you expect it to take to stand up 
the new agency? When do you expect and when do you expect it to 
be completed?
    Mr. Lumpkin. We expect initial operational capability on 1 
January 2015, and then fully operational on 1 January 2016.
    Mr. Scott. While this is happening, who will handle the 
current recovery and lab work and repatriation?
    Mr. Lumpkin. JPAC, which is the Joint POW/MIA Accounting 
Command in Hawaii, will continue to do its mission as currently 
stated. And the Defense Prisoner of War/Missing in Action 
Office here in Washington, DC, will continue to do their job, 
and the Life Science Equipment Lab in its current structure 
will do its job.
    So we are building something up while we are shrinking 
those capabilities down to make sure that it is seamless.
    Mr. Scott. Thanks for those answers. I, again, want to go 
back and reiterate the point if we have 25,000 missing in 
action that are recoverable, and we only retrieve--only achieve 
200 a year in returning them to their families, that that is 
125 years. And that is--any way we can bring the private sector 
in and others to help us increase that pace is something that I 
hope you will continue to work with us on.
    Thank you, Mr. Chairman, I yield back the remainder of my 
time.
    Mr. Wilson. Thank you, Congressman Scott. We now proceed to 
Congressman Rich Nugent of Florida.
    Mr. Nugent. Thank you, Mr. Chairman, and thank you for 
allowing me to be here today in this setting. I want to thank 
both Dr. Morin and Mr. Lumpkin in regards to how you are moving 
forward. I think you are using a very deliberate approach in 
regards to getting this transitional person in there early, to 
start laying out where you are trying to go. I am not going to 
really ask any specific questions just because it is so early 
in the process. I do appreciate, Mr. Lumpkin, your willingness 
to come back here on a quarterly basis to apprise us as to how 
this process is moving along.
    And I just think any time you can merge two organizations 
together, I mean, there is going to be some hiccups along the 
way. It sounds like you are going to be able to continue to do 
the job that is necessary to do within the next, a little over 
a year, but I would--I guess my question falls along where Mr. 
Scott was going with 25,000-plus that we think are recoverable 
and that you really did push that number out 125 years. Most 
families wouldn't even know--there is such a distance between 
the date of death, the missing to come up.
    How do you prioritize in regards to going out to locate 
remains to bring them back and give them the proper honors they 
deserve? How do we prioritize that?
    Mr. Lumpkin. It is an interesting question because it is an 
evolving process, as you are aware, prior to 2010, recovering 
those missing from World War II were not part of the Department 
of Defense's mission set. So that was through legislation that 
was created. So we had a number of 65,000-plus that were added 
virtually overnight. So from 2010, we have restructured and we 
have relooked at how to do business is to focus on--because you 
have multiple kind of lines of effort, and they are frequently 
based on conflict. In the sense that Southeast Asia, for 
example, there has been numerous decades of work and research 
done to build the intelligence and the information in order to 
where to go in order to do an excavation to recover the 
remains. So we have very mature case files.
    North Korea, and Korea, for example, North Korea there are 
significant access problems currently which makes it difficult 
for us to work in the field on those particular cases. In World 
War II now, since it has been added to our mission set, we are 
spending a large part of the effort building the case files to 
get the intelligence and the information of where those missing 
are actually at. And this is where many of those in the private 
sector have been working these issues for years, and have done 
a lot of research that we can build on.
    So maybe I am being optimistic here, and I like to be 
optimistic and plan for it, but I believe that we are going to 
see a period of time if we open up effectively our public-
private partnership, we will see the opportunities with regard 
to identifying those missing from World War II increase 
significantly as we are able to increase our capabilities of 
research on that effort and working with public-private in that 
forum in order to harness all the great work they have done in 
the research and to build the case files. I am very optimistic 
that we will build to capacity significantly in the coming 
years.
    Mr. Nugent. I think it is great.
    Mr. Lumpkin. If I may just finish, I said in my opening 
comments is that change even for the better is painful, it is 
difficult.
    Mr. Nugent. It always is.
    Mr. Lumpkin. It is. Over the years, because where we have 
gone is that we built the accounting community by bolting a 
piece on, bolting a piece on there, and it has built into this 
thing. All great people working hard to get the mission done, 
but I think that is why we are here at this point of where it 
is a natural inflection point for reorganization.
    Mr. Nugent. And hopefully, as you do move along this 
reorganization is that one component or at least somebody is 
given the responsibility to work with those nongovernment 
organizations to get more bang for our buck. The whole idea is 
not about--to me it is not about the dollars, it is about 
bringing these folks back home.
    Mr. Lumpkin. Absolutely. And closure for the families, 
because they are the center of this when it is all said and 
done.
    Mr. Nugent. Absolutely. So I would hope that that is part 
of the equation, have somebody that is responsible for and is 
accountable for working with those groups to get more access.
    Mr. Lumpkin. It is.
    Mr. Nugent. I appreciate it. Thank you very, very much for 
your comments. I yield back.
    Mr. Wilson. Thank you, Congressman Nugent. We would like to 
thank both of you for being here today. Again, we are all very 
appreciative of the competence and capabilities and the 
dedication of the people who are working on these issues. And I 
want to join with Congressman Nugent, too, to wish you well as 
they are merged, in the interest, again, of our veterans and 
military families and current service members too.
    There being no further business, we are adjourned.
    [Whereupon, at 3:46 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             July 15, 2014

=======================================================================
     


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 15, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 15, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
    
                               <all>
</pre></body></html>
